APPENDIX 1

Case 1:08-cr-00092-LG-RHW Document 79 Filed 12/13/19 Page 1 of 1

APPENDIX 2

Case: 19-60941

Document: 00515555842

Page: 1

Date Filed: 09/08/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 8, 2020

No. 19-60941
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
John Riley, also known as P. J.,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:08-CR-92-1
Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
John Riley, federal prisoner # 15081-043, was convicted of possession
with intent to distribute more than five grams of a mixture or substance
containing a detectable amount of cocaine base in violation of 21 U.S.C.
§ 841(a)(1).

*

He was initially sentenced to a 324-month term of

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-60941

Document: 00515555842

Page: 2

Date Filed: 09/08/2020

No. 19-60941

imprisonment, but his sentence was twice reduced, and he is currently
serving a 210-month term of imprisonment. He moved for resentencing
under the First Step Act of 2018, § 404, Pub. L. No. 115-391, 132 Stat. 5194,
5222 (2018). The district court denied the motion. We remand for the
limited purpose of allowing the district court to explain why it did so, and we
retain jurisdiction as is customary for limited remands. See, e.g., United States
v. Gomez, 905 F.3d 347, 354-56 (5th Cir. 2018).
Without a hearing, the district court denied the motion in an order
without giving any reasons. Though district courts need not always explain
why they have denied a motion, meaningful review is possible here only with
a statement of reasons for the denial. See Peteet v. Dow Chem. Co., 868 F.2d
1428, 1436 (5th Cir. 1989). Absent such a statement, we can only guess why
the motion was denied. We thus REMAND for the limited purpose of
allowing the district court to explain its reasons for the denial.

2

Case: 19-60941

Document: 00515555852

Page: 1

Date Filed: 09/08/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

September 08, 2020

Mr. Arthur S. Johnston III
Southern District of Mississippi, Gulfport
United States District Court
2012 15th Street
Dan M. Russell Jr. United States Courthouse
Gulfport, MS 39501
No. 19-60941

USA v. John Riley
USDC No. 1:08-CR-92-1

Dear Mr. Johnston,
Enclosed is an opinion entered in this case. The case has been
placed in abeyance pending disposition of the remand proceedings
stated within the opinion.

Sincerely,
LYLE W. CAYCE, Clerk

By: _________________________
Nancy F. Dolly, Deputy Clerk
504-310-7683
Enclosure(s)
cc:

Mrs. Erin O'Leary Chalk
Mr. Gregory Layne Kennedy
Mr. Michael L. Scott
Mr. Thomas Creagher Turner Jr.
Ms. Princess Williams

APPENDIX 3

Case 1:08-cr-00092-LG-RHW Document 88 Filed 09/09/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
UNITED STATES OF AMERICA

PLAINTIFF

v.

CAUSE NO. 1:08CR92-LG-RHW

JOHN RILEY

DEFENDANT

SUPPLEMENTAL ORDER ON REMAND
FROM THE FIFTH CIRCUIT COURT OF APPEALS
BEFORE THE COURT is the [87] Order to Remand entered by the Fifth
Circuit Court of Appeals on September 8, 2020. See U.S. v. Riley, No. 19-60941.
The matter has been remanded “for the limited purpose of allowing the district
court to explain its reasons for the denial.” Id at 2.
Through appellate counsel, John Riley has appealed this Court’s denial of his
Motion for a Sentencing Reduction under the provisions of the First Step Act. In its
Order to Remand the Fifth Circuit explained that “the district court denied the
motion in an order without giving any reasons.” Id. The appellate panel’s
statement is understandable. It could have reached no other conclusion when
viewed through the lens of the inaccurate and incomplete record set before it on
appeal.1 However, as explained in more detail below, this Court’s reason for denial

In the appellant’s brief, counsel for the defendant represented to the appellate
court that the “district court failed to make a complete review by issuing a ‘checked
box’ order, instead of an explanation or analysis of the merits.” See Br. Appellant,
U.S. V. Riley (No. 19-60941) at 10. On April 24, 2020, appellant filed the required
Record Excerpts. Although exhibit 5 of the Record Excerpts purports to be this
Court’s order to deny Riley’s Motion for sentence reduction, it is actually a prior
order granting relief on a different motion. In fact, except for the docket
annotations at ROA 318 and 417 in the lower court’s record, the full text of this
1

-1-

Case 1:08-cr-00092-LG-RHW Document 88 Filed 09/09/20 Page 2 of 3

of the Motion for Sentencing Reduction is stated in the original order denying the
Motion.
On December 13, 2019, after review of the record, briefs and arguments of
counsel, this Court denied Riley’s Motion for another sentence reduction. See Order
Regarding Motion for Sentence Reduction Pursuant to 18 U.S.C. § 3582(c)(2), ECF
Nos. 79-80, ROA 318 and 417. The signed Order is indeed a form order (AO 247
Rev. 3/19). But it is more than a “check box”. At page two, ECF No. 80, ROA 417,
Section III. the Order states as follows:
III. FACTORS CONSIDERED UNDER USSG § 1B1.10AND U.S.C. § 3553(a)
(See Chavez-Meza v. United States, 138 S.Ct. 1959 (2018)). As this
defendant’s sentence has previously been reduced by all applicable guideline
amendments, the defendant’s motion is denied. .
The Order referenced above is a two-page order. Page one can be found at
ECF No. 79, ROA 318. The top portion of page one includes the following notice:
“Page 1 of 2 (Page 2 Not for Public Disclosure)”. Page two can be found at ECF No.
80, ROA 417 and is a “restricted document”; thus only court authorized personnel
may have access.2
This Court cannot tell whether the panel was provided a full text copy of the
original two-page Order. If so, it does not seem to appear in the appellate record
excerpts, nor is the salient language found on page two of the Court’s order

Court’s order denying the Motion for sentence reduction at issue here does not
appear in the any of the record excerpts on appeal.
According to the USPO, page two is restricted from public view because it routinely
contains guideline calculations. In addition, page two may contain confidential
information regarding any sentence reduction granted by the court pursuant to Fed.
R. Crim. P. 35 or USSG § 5K1.1.
2

-2-

Case 1:08-cr-00092-LG-RHW Document 88 Filed 09/09/20 Page 3 of 3

referenced in either the appellant or appellee’ s brief. Perhaps, since it is a two-part
order, and page two is restricted, the parties simply missed it. However, in an
abundance of caution,
IT IS ORDERED AND ADJUDGED that this Court adopts and restates its
prior findings regarding the defendant’s [73] Motion to Reduce Sentence. After
consideration of the record, the briefs and arguments of counsel, and applicable law,
it is the finding of the Court that the defendant has previously received all of the
benefits of the applicable guideline amendments and as such the Motion is denied.
IT IS FURTHER ORDERED AND ADJUDGED that the Clerk of Court
shall transmit a copy of this Order to the United States Court of Appeals for the
Fifth Circuit.
SO ORDERED AND ADJUDGED this the 9th day of September, 2020.
s/

Louis Guirola, Jr.

LOUIS GUIROLA, JR.
UNITED STATES DISTRICT JUDGE

-3-

APPENDIX 4

Case: 19-60941

Document: 00515665508

Page: 1

Date Filed: 12/08/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 8, 2020

No. 19-60941
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
John Riley, also known as P. J.,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:08-CR-92-1
Before Barksdale, Graves, and Oldham, Circuit Judges.
Per Curiam:*
John Riley, federal prisoner # 15081-043, challenges the district
court’s order denying his motion for resentencing under the First Step Act
of 2018, § 404, Pub. L. No. 115-391, 132 Stat. 5194, 5222 (2018). Riley

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-60941

Document: 00515665508

Page: 2

Date Filed: 12/08/2020

No. 19-60941

contends: his motion did not receive a complete review on the merits; and
the order denying his motion lacked any explanation or review of his claim.
A district court’s discretionary denial of relief under Section 404 of
the First Step Act is, generally, reviewed for abuse of discretion. United
States v. Jackson, 945 F.3d 315, 319 (5th Cir. 2019).
On limited remand, the district court explained that it had denied
Riley’s motion for resentencing because his sentence “has previously been
reduced by all applicable guideline amendments”. Insofar as Riley maintains
the court failed to consider the merits of his motion for a sentence reduction,
his contention fails. Id. at 321–22 (denying motion for reduced sentence
under § 404 because, inter alia, “[defendant] had his day in court. He filed a
detailed motion explaining why he should get a new sentence; the
government responded; the court denied the motion; and, on limited
remand, it explained why. . . . The procedures here were blameless”.).
Alternatively, if Riley is challenging the court’s reasoning for its
denial, his contention is waived for inadequate briefing. See Fed. R. App. P.
28(a)(8)(A); United States v. Reagan, 596 F.3d 251, 254 (5th Cir. 2010) ( “a
failure to brief . . . constitutes waiver”). He claims his motion “never
received a complete review on the merits as required”. As discussed above,
on limited remand, the court provided an adequate explanation for its denial.
(In addition, he concedes his claims lack merit. See Jackson, 945 F.3d at 321–
22.)
AFFIRMED.

2

Case: 19-60941

Document: 00515665512

Page: 1

Date Filed: 12/08/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

December 08, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-60941

USA v. John Riley
USDC No. 1:08-CR-92-1

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5TH Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5TH Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 19-60941

Document: 00515665512

Page: 2

Date Filed: 12/08/2020

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Whitney M. Jett, Deputy Clerk
Enclosure(s)
Mrs. Erin O'Leary Chalk
Mr. Gregory Layne Kennedy
Mr. Michael L. Scott
Mr. Thomas Creagher Turner Jr.
Ms. Princess Williams

APPENDIX 5

United States v. Riley, 831 Fed.Appx. 122 (2020)

831 Fed.Appx. 122 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff—Appellee,
v.
John RILEY, also known as
P. J., Defendant—Appellant.
No. 19-60941
|
Summary Calendar
|
FILED December 8, 2020
Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 1:08-CR-92-1
Attorneys and Law Firms
Gregory Layne Kennedy, Esq., Assistant U.S. Attorney, Erin
O'Leary Chalk, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Mississippi, Jackson, MS, for
Plaintiff-Appellee
Michael L. Scott, Esq., Thomas Creagher Turner, Jr.,
Esq., Princess Williams, Federal Public Defender's Office
Southern District of Mississippi, Jackson, MS, for DefendantAppellant
Before Barksdale, Graves, and Oldham, Circuit Judges.

under the First Step Act of 2018, § 404, Pub. L. No. 115-391,
132 Stat. 5194, 5222 (2018). Riley contends: his motion did
not receive a complete review on the merits; and the order
denying his motion lacked any explanation or review of his
claim.
A district court's discretionary denial of relief under Section
404 of the First Step Act is, generally, reviewed for abuse of
discretion.
Cir. 2019).

United States v. Jackson, 945 F.3d 315, 319 (5th

On limited remand, the district court explained that it
had denied Riley's motion for resentencing because his
sentence “has previously been reduced by all applicable
guideline amendments”. Insofar as Riley maintains the court
failed to consider the merits of his motion for a sentence
reduction, his contention fails.
Id. at 321–22 (denying
motion for reduced sentence under § 404 because, inter alia,
“[defendant] had his day in court. He filed a detailed *123
motion explaining why he should get a new sentence; the
government responded; the court denied the motion; and, on
limited remand, it explained why.... The procedures here were
blameless”.).
Alternatively, if Riley is challenging the court's reasoning for
its denial, his contention is waived for inadequate briefing.
See Fed. R. App. P. 28(a)(8)(A);
United States v. Reagan,
596 F.3d 251, 254 (5th Cir. 2010) ( “a failure to brief ...
constitutes waiver”). He claims his motion “never received
a complete review on the merits as required”. As discussed
above, on limited remand, the court provided an adequate
explanation for its denial. (In addition, he concedes his claims
lack merit. See

Jackson, 945 F.3d at 321–22.)

AFFIRMED.

Opinion
PER CURIAM: *

All Citations

John Riley, federal prisoner # 15081-043, challenges the
district court's order denying his motion for resentencing

831 Fed.Appx. 122 (Mem)

Footnotes
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this opinion should not be published and is
not precedent except under the limited circumstances set forth in 5th Circuit Rule 47.5.4.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Riley, 831 Fed.Appx. 122 (2020)

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

